FEBRUARY 16, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




   AUDIT OF NASA’S PURCHASE AND TRAVEL CARD
                   PROGRAMS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-010 (ASSIGNMENT NO. A-11-012-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CBA          Centrally Billed Account
FMOP         Financial Management Operating Procedure
FTR          Federal Travel Regulation
IBA          Individually Billed Account
NEACC        NASA Enterprise Applications Competency Center
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
NSSC         NASA Shared Services Center
OMB          Office of Management and Budget


                                                              REPORT NO. IG-12-010
FEBRUARY 16, 2012




                                                                               OVERVIEW

   AUDIT OF NASA’S PURCHASE AND TRAVEL CARD PROGRAMS

                                                                                 The Issue

  Like other Federal Government agencies, NASA uses purchase cards to reduce the
  administrative cost of processing small dollar purchases and travel cards to reduce the
  cost of official travel and for the convenience of the traveler. In addition, NASA receives
  rebates from the credit card issuer based on volume of activity and timeliness of
  payments. NASA’s approximately 15,500 travel and 2,200 purchase cardholders
  incurred $79 million and $82 million in charges, respectively, during fiscal year 2010.

  Because they allow the same individual to order, pay for, and receive goods and services,
  purchase and travel cards are at high risk for misuse, fraud, waste, and abuse. Moreover,
  the sheer number of cards in circulation opens NASA to the possibility of fraud. For
  example, NASA’s charge card issuer reported that from June 2010 through July 2011,
  36.5 percent of purchase cards and 3 percent of travel cards had been compromised in the
  sense that card information (e.g., card number, cardholder’s name) may have been
  obtained by an unauthorized source. Accordingly, if the internal controls governing
  NASA’s purchase and travel card programs are not sufficient, properly designed, and
  fully implemented, NASA will not be in the best position to detect and prevent fraudulent
  purchases or other improper use of the cards.

  For this audit, we examined transactions charged to NASA purchase and travel cards
  between October 1, 2009, and December 31, 2010, to determine whether NASA’s
  purchase and travel card programs were operating efficiently and whether internal
  controls were effective in preventing and detecting misuse, fraud, waste, or abuse by
  cardholders or third parties. See Appendix A for details of the audit scope and
  methodology.

                                                                                     Results

  Overall, we found that NASA’s purchase and travel card programs were operating
  efficiently and that internal controls appeared effective in detecting misuse, fraud, waste,
  and abuse. However, we believe NASA could further strengthen its controls by applying
  Office of Management and Budget (OMB) guidance and implementing, Agency-wide,
  practices used by several NASA Centers. For example, NASA should evaluate card
  usage and close or restrict accounts that are underutilized. We also believe that NASA
  should clarify its policy regarding the allowability of certain types of charges on its travel
  cards. In addition, we found that NASA was not in compliance with OMB policy


REPORT NO. IG-12-010
                                                                                                    OVERVIEW



     regarding the application of card rebates. 1 Lastly, we found an inappropriately high
     number of employees had the ability to both authorize their own travel and approve their
     own travel reimbursement claims.

     Improper Application of Rebates. NASA did not properly return rebates earned from
     its charge card issuer, JPMorgan Chase & Co. (JPMorgan), to the appropriate
     appropriation or account, resulting in possible misapplication and augmentation of
     funds. 2 NASA received rebates of approximately $5 million from October 2006 to
     December 2010, with about $1.8 million received during our audit period of October
     2009 to December 2010. NASA applied these funds to its working capital fund, which
     since 2006 has been managed by the NASA Shared Services Center (NSSC). However,
     OMB guidance requires that rebates be returned to the appropriation or account from
     which the funds for the purchases were expended. NASA’s rationale for applying the
     rebate to the working capital fund was that the rebate reduces the overall operating costs
     of the fund, with the resulting savings passed on to the users of NSSC’s services via a
     reduction in per-transaction charges. However, because NASA could not show that these
     savings were allocated to particular appropriation accounts proportionate to the
     associated expenditures from those accounts, this practice results in possible
     misapplication and augmentation of appropriated funds.

     Controls over the Travel Card Program, While Generally Effective, Could Be
     Strengthened. We found that while existing internal controls over NASA’s travel card
     program are generally effective in detecting misuse, fraud, waste, and abuse by
     cardholders, the Agency could further strengthen its controls. Specifically, we found that
     NASA issued an excessive number of travel cards and that the Agency could make better
     use of reports the card issuer already provides to help detect fraud and misuse. We also
     believe that NASA should clarify its policy regarding the allowability of certain types of
     personal charges.

     NASA’s Internal Controls for the Travel Card Program Are Generally Effective. We
     found that NASA was effectively monitoring travel card use, that NASA’s travel card
     policies and procedures are generally consistent with OMB guidelines, and that the
     Agency was providing employees with appropriate training. We also found that most
     NASA employees used their travel cards appropriately and paid their bills on time, and
     that NASA was effectively monitoring employee payments and reminding employees
     when their accounts were past due.

     NASA Should Reduce the Number of Travel Cards Issued. We found an excessive
     number of individuals at NASA with travel cards who do not need them. For example,

     1
         OMB Circular A-123 Appendix B, “Improving the Management of Government Charge Card
         Programs,” January 2009.
     2
         Government Accountability Office (GAO). “Principles of Federal Appropriations Law, Third Edition,
         Volume II,” February 2006 (GAO-06-382SP), describes the concept of augmentation as a Government
         agency using funds derived from an outside source to finance the operation of a program beyond the
         level established by appropriation, without Congressional approval.



ii                                                                                     REPORT NO. IG-12-010
OVERVIEW



  909 travel cards, or 6 percent of all travel cards at NASA, had never been used.
  Additionally, we found that 28 cardholders had separated from NASA but still had active
  travel card accounts. NASA did not conduct periodic reviews of travel card accounts to
  determine if continued possession of a travel card was warranted (i.e., used for a
  minimum amount of travel) or have adequate policies and procedures to ensure that
  accounts of separated employees were closed. Allowing employees to maintain travel
  card accounts they are not using unnecessarily increases the risk of loss, fraud, abuse, and
  misuse of these cards.

  NASA Should Clarify Internal Policy Regarding Travel Card Use and Implement
  Additional Controls. NASA has implemented various controls to prevent and detect the
  use of travel cards for other than authorized purposes, and we found these controls are
  generally effective. Specifically, we tested 176 transactions and found 9 instances of
  improper or questionable use that had not been detected by NASA. In 4 of these
  instances, the cardholder had clearly used the card for personal or non-travel related
  expenses: a charge of $773 for personal travel; $63 to renew personal subscriptions to
  periodicals; $306 to pay for refreshments for an awards ceremony; and $114 to purchase
  snacks at a hotel gift shop. None of these employees sought reimbursement from NASA
  for these charges. In addition, we identified five instances where it was not clear whether
  charges were allowable because the Federal Travel Regulation (FTR) does not clearly
  prohibit certain types of expenses and NASA has not issued supplemental policy to
  clarify the FTR. For example, NASA policy does not address use of a travel card to
  purchase in-room movies when staying at a hotel on official travel, to pay for the meals
  of others who are on official travel, or for hotel expenses incurred for a personal stay that
  precedes or follows an official business trip.

  We also found that NASA could make better use of existing reports to help identify
  improper use of travel cards. For example, JPMorgan’s PaymentNet® system
  (PaymentNet) generates a Cash Advance Report to help identify cash advances unrelated
  to Government travel. Although several NASA Centers consistently review this report,
  we found that others do not.

  NASA’s Policy and Practices Regarding Self-Approval and Self-Authorization of
  Travel Are Overly Broad. We found 45 NASA employees had the authority to “self-
  approve” both travel authorizations and travel claims, meaning their authorizations and
  claims did not have to be reviewed and approved by a supervisor or approving official. 3
  The number of self-approvers at NASA is exorbitant when compared with other Federal
  agencies such as the Department of Justice where only 2 positions out of more than
  116,000 employees have this type of authority. During our audit period, NASA self-
  approvers incurred $552,000 in travel expenses charged to their individual credit cards.
  We also found that according to NASA’s written policy, 22 of these employees should
  have been able to authorize their own travel but required to obtain supervisory approval
  of travel-related expenses. Additionally, subordinate employees approved the travel
  3
      To self-authorize, an employee agrees that their planned travel is to conduct appropriate and necessary
      official Government business without another’s prior documented consent.



REPORT NO. IG-12-010                                                                                            iii
                                                                                        OVERVIEW



     claims of their superiors in contravention of NASA policy. Finally, NASA’s policy
     designating who can self-authorize and self-approve is out of date and refers to positions
     that no longer exist at the Agency. All of these conditions increase the risk of fraud and
     abuse in NASA’s travel card program.

     Controls over the Purchase Card Program, While Generally Effective, Could Be
     Strengthened. We found that while the internal controls over the purchase card program
     are generally effective in detecting misuse, fraud, waste, and abuse by cardholders, we
     believe NASA could further strengthen its controls. We found that NASA had issued an
     excessive number of purchase cards that were rarely used. We also found instances of
     insufficient documentation for purchase requests and for the cost and approval of
     purchases.

     NASA’s Internal Controls for the Purchase Card Program Are Generally Effective. We
     found that NASA was effectively monitoring purchase card use, that NASA’s purchase
     card policies and procedures generally comply with OMB guidelines, and that the
     Agency was providing appropriate training to its employees. Additionally, we found that
     NASA employees used their purchase cards for authorized purchases and usually retained
     appropriate documentation supporting their purchases. However, we identified several
     areas for improvement.

     NASA Should Reduce the Number of Purchase Cards Issued. We found that 20
     cardholders at Ames Research Center had never used their cards and 90 others Agency-
     wide had used their cards only one time between October 1, 2009, and December 31,
     2010. Allowing purchase cardholders to maintain purchase card accounts that are not
     needed on a recurring basis unnecessarily increases the risk of loss, fraud, abuse, and
     misuse of the cards. Based in part on our audit, NASA reviewed these accounts and
     closed 27.

     NASA Should Improve the Documentation and Approval Trail for Purchases. NASA has
     not developed sufficient policies and controls for documentation of purchase card
     purchases and approvals. Specifically, we found instances in which the individuals
     requesting and approving purchases could not be identified and transaction files
     contained no evidence of the cost of purchases.

     OMB guidance requires that purchase cardholders include a written request or at a
     minimum the requestor’s name in the transaction records and that prior approval be
     obtained before self-generated purchases are made. However, 39 of 203 purchase card
     transactions records we examined did not contain written requests from or otherwise
     identify the individual requesting the purchase. Of those 39 transaction records, 14 were
     self-generated purchases (i.e., purchases originating from the cardholders without a
     request from a third party) in which prior approval by a supervisor was not obtained.

     Similarly, out of 97 transactions we sampled for control testing, we found 75 with
     inconclusive evidence of who approved the reconciliation of the transactions. NASA
     uses P-Card Web Solution™ to track approval of purchase card reconciliations. An


iv                                                                          REPORT NO. IG-12-010
OVERVIEW



  approving officer can delegate their approval authority within P-Card Web Solution to a
  third party but when a designee reviews reconciliations, P-Card Web Solution records the
  user identification code of the approving official rather than the designee.

  For 10 of the 203 transactions we examined, we noted that the vendor invoice or other
  form of supporting documentation that validates the cost of items purchased was not
  received from the vendor and maintained in the purchase card transaction records.
  NASA’s policy does not incorporate the OMB recommended practice of requiring
  purchase cardholders to obtain an invoice or alternative form of evidence of costs such as
  a quote or a screen print for Internet purchases if one is not already provided by the
  vendor. By making greater use of recommended controls and best practices used at
  several NASA Centers, NASA could further reduce the risk of misuse, fraud, waste, and
  abuse of purchase cards.

                                                               Management Action

  We recommended that the Chief Financial Officer:
         •   implement policies that ensure rebates are distributed to the appropriation or
             account against which the original charge was made or seek statutory
             authority to apply the rebates to the working capital fund;

         •   improve controls over the travel card program by:

                 o obtaining and cancelling the accounts of all individuals who separate
                   from employment at NASA and conduct periodic reviews to ensure
                   that such accounts have been cancelled;

                 o implementing a policy requiring a minimum amount of anticipated
                   travel before issuance or re-issuance of a travel card;

                 o requiring quarterly evaluations of cardholder accounts for minimum
                   usage and recommend deactivating accounts or lowering the spending
                   limits of underutilized cards;

                 o enhancing controls to identify misuse of the travel card, such as
                   developing a data-mining tool to identify suspicious activity or
                   patterns of abuse or misuse of travel cards, to complement the tools
                   available from JPMorgan; and

                 o developing guidance to address when limited personal use of the travel
                   card during official Government travel may be acceptable and
                   reminding cardholders and supervisors of the proper uses of the card.




REPORT NO. IG-12-010                                                                           v
                                                                                        OVERVIEW



            •   develop policies and procedures to significantly decrease the number of
                positions permitted to self-authorize and/or self-approve their travel and
                ensure that appropriate supervisors are reviewing and approving travel claims.

     We recommended that the Assistant Administrator for Procurement:

            •   develop a policy requiring a minimum amount of purchases or a demonstrated
                necessity before issuance or re-issuance of a purchase card and require
                recurring evaluations of cardholders for minimum usage and recommend
                deactivating cards or lowering the spending limits of underutilized cards;

            •   require sufficient documentation for purchases, as required by OMB Circular
                A-123 Appendix B, including a written request for purchases or, at minimum,
                the requestor’s name, written approval prior to making self-generated
                purchases, and evidence supporting the costs of purchases such as an invoice
                or alternative evidence of costs such as a screen print; and

            •   work with the NASA Enterprise Applications Competency Center to make
                systems changes to P-Card Web Solution to enable the software to document
                the user identification code of the approving party and work with the Purchase
                Card Coordinator to develop an alternative documentation process for
                approvals until systems changes are made.

     In response to a draft of this report, the Chief Financial Officer concurred with the 12
     recommendations addressed to her, stating that she plans to seek statutory authority to
     apply rebates to the working capital fund and, pending such legislative action, will
     implement a revised process to more clearly return rebates to the appropriation that
     funded the activity. In addition, she promised to improve policies and controls over the
     travel card program, including reducing the number of individuals with the authority to
     authorize and approve their own travel. We consider the Chief Financial Officer’s
     comments and proposed actions responsive; therefore, these recommendations are
     resolved and will be closed upon completion and verification of the proposed actions.

     The Assistant Administrator for Procurement concurred with our recommendation to
     properly document purchase approvers and proposed responsive corrective action.
     Accordingly, this recommendation is resolved and will be closed upon completion and
     verification of the proposed actions. However, the Assistant Administrator did not
     concur with our recommendations to develop a policy (1) requiring a minimum amount
     of purchases or a demonstrated necessity before issuance or re-issuance of a purchase
     card or (2) requiring a written request for purchases or, at minimum, the requestor’s
     name, written approval prior to making self-generated purchases, and evidence
     supporting the costs of purchases, stating that current policies adequately address these
     issues.

     With regard to the first of these recommendations, the Assistant Administrator noted that
     NASA’s current policy already requires approving officials to conduct a usage analysis of


vi                                                                          REPORT NO. IG-12-010
OVERVIEW



  cardholder accounts every six months. However, we found that this analysis was not
  effectively performed, which resulted in a high number of underutilized cards remaining
  active. Additionally, the existing policies are not clear in defining the need or
  prerequisite criteria for a card to be issued. Similarly, in our view NASA’s current policy
  for documenting purchase card purchases is inadequate. While the current policy
  requires cardholders to record information regarding items ordered, it does not
  specifically require inclusion of the requestor’s name. We believe that in the absence of
  such a requirement cardholders will continue to omit this information. Similarly, while
  cardholders may be trained to enter information related to special approvals in their order
  logs, we found no evidence that they are required to obtain and document evidence of
  approval for self-generated purchases. Finally, although we agree that current policy
  requires cardholders to include an invoice when the merchant provides one, the policy
  does not specify what evidence of cost is required when an invoice is not provided.
  Accordingly, these recommendations remain unresolved. Management’s comments can
  be found in Appendix D.




REPORT NO. IG-12-010                                                                            vii
FEBRUARY 16, 2012




                                                           CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objective ___________________________________________ 4

  RESULTS
      Improper Application of Rebates _________________________ 5
      Controls over the Travel Card Program, While Generally
        Effective, Could Be Strengthened ______________________ 8
      NASA’s Policy and Practices Regarding Self-Approval and
        Self-Authorization of Travel Are Overly Broad____________ 13
      Controls over the Purchase Card Program, While Generally
        Effective, Could Be Strengthened _____________________ 18

  APPENDIX A
      Scope and Methodology _______________________________          25
      Review of Internal Controls ____________________________       26
      Federal Laws, Regulations, Policies, and Guidance __________   27
      Prior Coverage ______________________________________          28

  APPENDIX B
      Sampling Methodology ________________________________ 29

  APPENDIX C
      Card Account Status and Transaction Data by NASA Location __ 31

  APPENDIX D
      Management Comments ______________________________ 33

  APPENDIX E
      Report Distribution ___________________________________ 38




REPORT NO. IG-12-010
FEBRUARY 16, 2012




                                                                            INTRODUCTION


Background

  Federal Government agencies use purchase cards to reduce the administrative costs
  associated with processing small dollar purchases and travel cards to reduce the costs
  associated with administering the official travel of their employees and for the
  convenience of the travelers. NASA’s purchase and travel card programs involve
  approximately 15,500 travel and 2,200 purchase cardholders who collectively incurred
  charges of $79 million and $82 million, respectively, in fiscal year 2010. Both programs
  also are intended to improve oversight of expenditures and take advantage of rebates
  from card issuers. However, charge card programs face a high risk of misuse, fraud,
  waste, and abuse.

  NASA obtains purchase and travel cards through the U.S. General Services
  Administration SmartPay2® program, which provides charge cards to U.S. Government
  agencies through master contracts with three major banks. One of these banks,
  JPMorgan Chase & Co (JPMorgan), has been NASA’s credit card service provider since
  2008. NASA receives rebates from JPMorgan based on the amount of money charged to
  the cards and the timeliness of payments. Rebates increase when payments are prompt
  but are reduced or eliminated when payments are delinquent or accounts with unpaid
  balances are canceled or “charged off.”

  Purchase and travel cards are at high risk for misuse or fraud because they allow the same
  individual to order, pay for, and receive goods and services. Moreover, the sheer number
  of cards in circulation opens NASA to the possibility of fraud. For example, JPMorgan
  reported that from June 2010 through July 2011, 36.5 percent of NASA purchase cards
  and 3 percent of travel cards were potentially compromised – meaning that card
  information (e.g., card number, holder’s name) may have been obtained by an
  unauthorized source as a result of the card being lost or stolen or through means of fraud.

  Office of Management and Budget (OMB) Circular No. A-123, Appendix B, sets forth
  the policies and procedures Federal agencies should use to maintain internal controls that
  reduce the risk of fraud, waste, and error in Government charge card programs. 4 The
  guidance also establishes minimum requirements and suggested best practices for card
  use. Supplemental NASA policy requires that travel and procurement cards be used only
  for the payment of authorized goods and services in support of Agency missions,
  operations, financial management, and institutional activities and assigns responsibility
  for the credit card programs within the Agency. 5 Pursuant to the policy, the Chief
  4
      OMB Circular No. A-123, Appendix B, “Improving the Management of Government Charge Card
      Programs,” Revised January 15, 2009.
  5
      NASA Policy Directive (NPD) 9070.2, “Government Charge Cards,” November 5, 2008.


REPORT NO. IG-12-010                                                                            1
                                                                                            INTRODUCTION



    Financial Officer is the Agency-wide lead for the travel card program, the Assistant
    Administrator for Procurement is the lead for the purchase card program, and the
    Executive Director of the NASA Shared Services Center (NSSC) has administrative
    oversight and program responsibilities for both programs.

    Each NASA Center, Headquarters, and the Wallops Flight Facility have Center/Agency
    Program Coordinators (Coordinators) who manage the charge card activities for their
    locations. Coordinators are responsible for issuing and closing accounts, ensuring that
    cardholders and approving officials are fully trained and meet refresher training
    requirements, overseeing the processing and validation of transactions, and investigating
    possible improper use or abuse of privileges by cardholders. The Coordinators are also
    responsible for conducting reviews of their locations’ charge card activities to ensure
    compliance with NASA and OMB requirements. In addition, NSSC designates an
    Agency Program Coordinator for each of the charge card programs to oversee the activity
    at the Agency level. All program participants, including cardholders and Coordinators,
    must be trained in charge card management.

    Travel Card. The Travel and Transportation Reform Act of 1998 (P.L. 105-264)
    mandates that Government travel cards be used to pay for all expenses associated with
    official Government travel unless specifically exempted. The purpose of the Act is to
    reduce the overall administrative costs of travel for the Federal Government and take
    advantage of rebates offered by card issuers.

    In accordance with the Act, the General Services Administration issued the Federal
    Travel Regulation (FTR), which sets forth policies and procedures governing the use of
    Government travel cards and restricts their use to official travel expenses only. While all
    Federal agencies are bound by the FTR, they may also issue supplemental policies
    consistent with the FTR to further guide the conduct of their employees. NASA’s
    supplemental guidance is found in NASA Procedural Requirements (NPR) 9700.1. 6

    The NASA travel card program includes two types of accounts: centrally billed accounts
    (CBA) and individually billed accounts (IBA). Centrally billed accounts are corporate
    accounts through which the Agency charges expenses associated with the air, rail, and
    bus transportation of NASA employees. The bills for these accounts are received and
    paid directly by NASA. Individually billed accounts are opened for NASA employees
    who charge expenses to the card attached to the account while they are on travel away
    from their official duty stations (e.g., meals, hotels, and taxis) and receive reimbursement
    from NASA after submitting their expenses via an expense report. The employees
    receive the statements associated with these individual accounts and are responsible for
    making the payments to JPMorgan directly.

    Data related to NASA’s travel card program is maintained in FedTraveler and in
    JPMorgan systems. FedTraveler is a comprehensive Electronic Government Travel
    6
        NASA Procedural Requirements (NPR) 9700.1, “Travel,” September 30, 2008; specifically,
        Appendix A. NASA Federal Travel Regulations Supplement.”



2                                                                                   REPORT NO. IG-12-010
INTRODUCTION



  Service Federal employees use to plan, book, track, approve, and request reimbursement
  for official Government travel. NASA makes FedTraveler available to Agency
  employees and requires them to use the system to initiate authorizations prior to
  embarking on travel and to request reimbursement for expenses upon their return.
  JPMorgan PaymentNet® provides cardholders and administrators access to data on
  spending and management reports.

  Purchase Card. NASA participates in the SmartPay Purchase Card program. The use
  of charge cards was introduced by the General Services Administration in 1984 to
  streamline the acquisition process across the Federal Government by allowing agencies to
  obtain certain supplies and services directly from vendors. The SmartPay Purchase Card
  program is intended to reduce the use of purchase orders and the associated
  administrative costs and improve the payment process by allowing for fully automated
  invoicing and payment processing. Additionally, the program further reduces overall
  costs by providing agencies the opportunity to receive rebates from issuers based on the
  dollar amount of transactions and the timeliness of payments. Like travel cards, purchase
  cards are issued to individual NASA employees; however, the associated accounts are
  billed to and paid directly by NASA.

  NASA Federal Acquisition Regulation Supplement, Part 1813, “Simplified Acquisition
  Procedures,” provides guidance for purchase card use. NASA locations have
  implemented additional controls and assigned contract personnel to handle program
  administration, including development of internal operating procedures. The Coordinator
  at each location is responsible for overall management of the location’s purchase card
  program. Additionally, the approving official for each cardholder serves as a key internal
  control point in reviewing individual cardholder purchases. Other controls established
  include single purchase limits, monthly purchase limits, reconciliation of monthly
  invoices, monitoring and training by Coordinators, and supervisory review of purchase
  card statements.

  NASA logs and tracks purchase card usage through P-Card Web Solution™.
  Cardholders must input detailed purchase information into an order log in P-Card Web
  Solution. The cardholder uses this information to reconcile the bills received from the
  issuer on a monthly basis. Supervisors/approving officers must approve monthly
  reconciliations within P-Card Web Solution. Further, JPMorgan PaymentNet provides
  cardholders and administrators access to data on spending and management reports.

  NSSC and the Working Capital Fund. The NSSC has administrative oversight and
  program responsibilities for the NASA purchase and travel card programs, acting as the
  liaison with JPMorgan for all aspects of the programs, monitoring account activity,
  updating and testing internal controls, and providing training. The NSSC was established
  in 2006 to consolidate into a single location multiple NASA business services that
  previously were provided by civil service and contractor personnel at each NASA Center.

  The NSSC is funded through a working capital fund, which in turn is funded primarily
  through “payments” made by NASA customers for NSSC services. NSSC calculates the


REPORT NO. IG-12-010                                                                           3
                                                                                 INTRODUCTION



    fees it charges users by estimating the total expected costs to perform the services. For
    the past 5 years, NSSC has applied the rebates NASA receives from card issuers to the
    working capital fund, which according to NSSC personnel has reduced the per-
    transaction costs charged to users of NSSC services. Prior to establishment of the NSSC
    in 2006, the Lead Agency Program Coordinator at Langley had administrative oversight
    and program responsibilities for the NASA purchase and travel card programs and
    rebates were applied to Langley’s General and Administrative budget to help defray the
    costs of performing these coordinator functions.


Objective

    Our objective was to determine whether NASA’s purchase and travel card programs were
    operating efficiently and in compliance with laws and regulations and whether its internal
    controls were effectively detecting misuse, fraud, waste, or abuse in the programs. See
    Appendix A for details of the audit’s scope and methodology; our review of internal
    controls, Federal laws, regulations policies, and guidance; and a list of prior audit
    coverage.




4                                                                         REPORT NO. IG-12-010
RESULTS




                                           IMPROPER APPLICATION OF REBATES

          NASA did not return rebates earned from JPMorgan to the proper appropriation as
          required by OMB. This resulted in a possible misapplication and augmentation of
          appropriated funds. From October 1, 2009, to December 31, 2010, NASA received
          travel and purchase card rebates totaling approximately $1.8 million from JPMorgan.
          NASA applied these rebates to the working capital fund that supports the operations
          of the NSSC. According to NSSC personnel, applying the rebates to the working
          capital fund reduced the operating costs of the NSSC, and the NSSC passed these
          savings on to the users of its services through a reduction in per-transaction charges.
          However, NASA could not show that the savings were allocated to particular
          appropriation accounts proportionate to the associated expenditures from those
          accounts, as required by OMB guidance and appropriation law.


Possible Misapplication and Augmentation of Funds

  NASA received quarterly travel and purchase card rebates totaling approximately
  $5 million from October 2006 to December 2010, with about $1.8 million received
  during our audit period of October 1, 2009, to December 31, 2010. Under the current
  JPMorgan contract, rebates are calculated based on two primary factors: the total dollar
  amount of purchases and the timeliness of payments. Rebate amounts rise with prompt
  payments and are reduced or eliminated by late payments, delinquencies, or charged-off
  accounts.

                     Table 1: Rebates for NASA Purchase and Travel Cards,
                              October 2006 through December 2010
                     CBA Travel          IBA Travel        Purchase
  Fiscal Year           Cards               Cards            Cards                     Total
  2007                  $88,255                $130,977                 $566,614     $785,846
  2008                  108,506                  150,072                 686,976      945,554
  2009                  269,200                  412,544                 774,836     1,456,580
  2010                  356,209                  376,101                 854,516     1,586,826
  2011                   67,990                   82,393                 112,324      262,707
     Total             $890,160              $1,152,087                $2,995,266   $5,037,513
  Source: Bank of America & JPMorgan Rebate Checks
  CBA, centrally billed accounts; IBA, individually billed accounts.

  OMB Circular A-123 Appendix B, paragraph 7.5, states, “Unless specific statutory
  authority exists allowing refunds to be used for other purposes, refunds must be returned
  to the appropriation or account from which they were expended, . . ..” However, NASA


REPORT NO. IG-12-010                                                                             5
                                                                                                          RESULTS



    applied the rebates not to the individual appropriation accounts from which the travel and
    purchase card funds were expended, but rather to the working capital fund that supports
    the overall operations of the NSSC. However, unlike other Federal Government
    agencies, NASA does not have specific statutory authority to apply the rebate directly to
    the working capital fund. 7 NSSC personnel told us that they believed this practice was
    consistent with OMB requirements because applying the rebates to the working capital
    fund reduced the per-transaction cost the NSSC charges users, thereby reducing costs for
    all users.

    However, NASA could not demonstrate that the savings were allocated to particular
    appropriation accounts proportionate to the associated expenditures from those accounts.
    For example, if its Science appropriation was due a $50,000 rebate credit based on its
    travel and purchase card transaction and payment history, NASA could not demonstrate
    that the appropriation received a corresponding discount on services performed by NSSC.
    Accordingly, some users may have received less than they were entitled to, while others
    may have received rebate credit in excess of their actual expenditures, which would have
    resulted in augmentation of the associated appropriations account. 8


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Chief Financial Officer should implement policies that ensure
rebates are distributed to the appropriation against which the original charge was made or, in
the alternative, seek statutory authority to apply rebates to the working capital fund. If
statutory authority is not obtained, this redistribution should be applied retroactively to
remedy prior years’ misapplications.

    Management’s Response. The Chief Financial Officer concurred, stating that her office
    has prepared a legislative proposal to apply rebates to the working capital fund. In the
    meantime, NASA is implementing a revised process to more clearly return rebates to the
    appropriation that funded the activity.




    7
        Unlike NASA, the Department of the Interior has received specific authority to apply credit card rebates
        to its working capital fund. P.L. 106-291, Department of the Interior and Related Agencies
        Appropriations Act, 2001 (Sec. 113) states “Refunds or rebates received on an on-going basis from a
        credit card services provider under the Department of the Interior’s charge card programs, hereafter may
        be deposited to and retained without fiscal year limitation in the Departmental Working Capital Fund
        established under 43 U.S.C. 1467 and used to fund management initiatives of general benefit to the
        Department of the Interior’s bureaus and offices as determined by the Secretary or his designee.”
    8
        Government Accountability Office (GAO), “Principles of Federal Appropriations Law, Third Edition,
        Volume II,” February 2006 (GAO-06-382SP) describes the concept of augmentation as a Government
        agency using funds derived from an outside source to finance the operation of a program beyond the
        level established by appropriation, without congressional approval.



6                                                                                        REPORT NO. IG-12-010
RESULTS



  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation. The recommendation is resolved and
  will be closed upon completion and verification of the proposed actions.




REPORT NO. IG-12-010                                                                   7
                                                                                         RESULTS




                         CONTROLS OVER THE TRAVEL CARD PROGRAM,
                            WHILE GENERALLY EFFECTIVE, COULD BE
                                                   STRENGTHENED

           We found that NASA’s internal controls relating to its travel card program are
           generally effective in detecting misuse, fraud, waste, and abuse by cardholders.
           However, we believe NASA could further strengthen the controls over its program
           by taking a series of actions. First, NASA does not perform periodic reviews of
           travel card accounts to ensure that the accounts of separated employees are closed.
           Second, the Agency does not evaluate the accounts of new and current employees to
           determine if those employees need a travel card. Allowing employees to maintain
           travel card accounts when they have separated from NASA or when the employee
           rarely or never needs to travel for official purposes unnecessarily increases the risk
           of fraud, abuse, or misuse of the cards. Finally, we found several instances of
           employees using travel cards for personal charges and believe that NASA should
           clarify its policy regarding the allowability of certain types of these charges.


NASA’s Internal Controls for the Travel Card Program Are
 Generally Effective

    We found that NASA was effectively monitoring travel card use and was reporting
    improper card use to the employee, the employee’s supervisor, or to the Center
    Coordinator when detected. We also found that NASA’s travel card policies and
    procedures are generally consistent with OMB guidance. Moreover, NASA mandates
    that all cardholders take training to ensure they fully understand their responsibilities.
    Additionally, we found that most NASA employees used their travel cards appropriately
    and paid their bills on time and that NASA was effectively monitoring payments and
    reminding employees when their accounts were past due. However, we identified several
    areas where internal controls over the travel card programs could be strengthened by
    more closely adhering to OMB guidance and implementing practices used by several
    NASA Centers.


NASA Should Reduce the Number of Travel Cards Issued

    We found that an excessive number of NASA employees have travel cards but do not
    need them. We identified separated employees with active cards and current employees
    who had never used their cards. In addition, we also found that JPMorgan routinely
    reissues cards as they expire without an evaluation by NASA regarding actual usage.
    This occurred because NASA has not developed a policy or procedure to verify whether
    cardholders are current NASA employees or whether employees’ duties warrant having a


8                                                                         REPORT NO. IG-12-010
RESULTS



  travel card. Additionally, NASA has not issued sufficient guidance to help supervisors
  determine whether employees need travel cards. Allowing employees to maintain travel
  card accounts they do not need unnecessarily increases the risk of card loss or theft, as
  well as fraud, abuse, and misuse of the cards.

  Separated Employees with Travel Cards. We found 28 travel cardholders at Goddard
  (12), Glenn (11), Langley (4), and Headquarters (1) who had separated from NASA but
  still had active travel cards. NASA’s exit procedures require that travel cards be returned
  to supervisors and that the relevant Coordinator be notified so the card can be cancelled.
  Although none of the cardholders we identified had used their card after their separation,
  allowing cards to remain active after individuals leave NASA’s employ increases the risk
  of fraud or misuse of the cards. Apart from its standard exit procedures, NASA has not
  developed an ongoing process across the Centers of comparing cardholder accounts to
  current employee rosters. However, Marshall and Johnson perform such reviews
  quarterly, and we noted no instances of active accounts for separated employees at those
  two Centers.

  Employees with Unactivated Cards. FTR section 301-51.2, exempts employees who
  travel 5 times or less per year from mandatory use of the Government travel charge card,
  although Agencies may issue cards to such employees at their discretion. As of
  August 23, 2011, we found 909 travel cards, or 5.5 percent of all NASA travel cards, had
  never been activated or had been activated but never used by the cardholder. In our
  judgment, this calls into question the cardholders’ need for these cards. We found that
  NASA employees generally obtained cards with little or no assessment by their
  supervisors of their immediate or future travel needs. Further, 842 of these unused cards
  were issued in 2008 when NASA transferred its travel card program from Bank of
  America to JPMorgan but did not evaluate cardholder needs to determine if reissuance
  was necessary.

  Many of the JPMorgan travel cards issued in 2008 are now expiring and new cards are
  once again being issued without consideration of prior use. NASA does not have an
  official policy recommending a minimum amount of travel required before issuance or
  reissuance of a travel card, nor does it require an evaluation of new employees or their
  positions to determine if a travel card should be issued. Despite the absence of policy, we
  found that Goddard is taking steps to limit the number of unnecessary cards.
  Specifically, Goddard’s Chief Financial Officer recommended that cardholders who had
  not traveled within the last 6 months consider cancelling or lowering the credit limit on
  their cards.


NASA Should Clarify Internal Policy Regarding Travel Card Use
 and Implement Additional Controls

  FTR sections 301-51.6 and 301-51.7 provide that travel cardholders may use their
  Government travel cards only for expenses directly related to official travel and may not


REPORT NO. IG-12-010                                                                            9
                                                                                          RESULTS



     use them to pay for personal expenses or for expenses not related to official Government
     travel. NASA has implemented various internal controls intended to prevent and detect
     noncompliance with this rule. For example, as a preventive measure, NASA restricts
     purchases from certain types of vendors, such as dating and escort services or casinos.
     All vendors that accept charge cards have a merchant category code. NASA provides
     JPMorgan a list of these codes and indicates by code the vendors at which employees
     may not make purchases. We found no instances of charges made to prohibited vendors.

     Similarly, we found NASA’s efforts to detect misuse were generally effective. Of the
     176 transactions we examined, we found only 9 instances of improper or questionable use
     that had not been detected by NASA. Specifically, we found a charge of $773 for
     personal travel; $63 to renew personal subscriptions to periodicals; $306 to pay for
     refreshments for an awards ceremony; and $114 to purchase snacks at a hotel gift shop.
     None of the cardholders sought reimbursement from NASA for these charges.

     However, we also found that NASA could make better use of reports that JPMorgan
     already provides to help identify improper use of travel cards. For example, JPMorgan’s
     PaymentNet system generates a Cash Advance Report to help identify cash advances that
     are not related to Government travel. Although several NASA Centers consistently
     review this report, we found that others do not.

     Lack of Clarity in Policy. In addition to the four instances of clearly improper use
     described above, we identified five instances in which it was not clear whether particular
     charges were allowable. We were unable to determine the appropriateness of these
     charges because the FTR does not clearly prohibit certain types of expenses and NASA
     has not issued a supplemental policy to clarify the FTR. For example, NASA policy does
     not address use of a travel card to pay for in-room movies when staying at a hotel on
     official travel, the meals of others who are on official travel, or hotel expenses incurred
     for a personal stay that precedes an official business trip. We found that other Federal
     agencies have issued guidance to address these types of issues. For example, the
     Department of Justice permits employees to charge their Government travel cards for
     in-room movies or personal nights at a hotel that precede or follow an official
     Government trip.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

We recommended that the Chief Financial Officer take the following actions:

Recommendation 2. Increase efforts to obtain the cards and cancel the accounts of all
individuals who separate from employment at NASA and conduct periodic reviews to
ensure that such accounts have been cancelled.




10                                                                          REPORT NO. IG-12-010
RESULTS



  Management’s Response. The Chief Financial Officer concurred, stating that her office
  has developed a Financial Management Operating Procedure (FMOP) that includes a
  process for reviewing accounts of separated employees on a monthly basis. The
  anticipated date of issuance of the FMOP is March 31, 2012.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the corrective actions.

Recommendation 3. Implement a policy requiring a minimum amount of anticipated travel
required before issuance or re-issuance of a travel card.

  Management’s Response. The Chief Financial Officer concurred, stating that new
  guidance will be added as part of the new FMOP, with an anticipated issuance date of
  March 31, 2012.

  Evaluation of Management’s Response. Management’s planned action is responsive;
  therefore, the recommendation is resolved and will be closed upon completion and
  verification of the corrective action.

Recommendation 4. Require a quarterly review of travel card usage and recommend
deactivating accounts or lowering the spending limits of underutilized cards.

  Management’s Response. The Chief Financial Officer concurred, stating that new
  guidance will be added as part of the new FMOP, with an anticipated issuance date of
  March 31, 2012.

  Evaluation of Management’s Response. Management’s planned action is responsive;
  therefore, the recommendation is resolved and will be closed upon completion and
  verification of the corrective action.

Recommendation 5. Remind cardholders and supervisors that travel cards are to be used
for official Government travel-related expenses only and should not be used for personal
expenses while on official travel.

  Management’s Response. The Chief Financial Officer concurred, stating that this
  requirement is currently addressed in the mandatory training for new cardholders and in
  refresher training, every 3 years, for current cardholders. However, to further reinforce
  this requirement, the NASA Shared Services Center updated both the Travel and Travel
  Card Customer websites with a reminder that travel cards are to be only used for official
  Government travel-related expenses.

  Evaluation of Management’s Response. The recommendation is resolved and closed
  based on verification of management’s corrective action.




REPORT NO. IG-12-010                                                                          11
                                                                                         RESULTS



Recommendation 6. Enhance controls to identify misuse of the travel card, such as
developing a data-mining tool to identify suspicious activity or patterns of abuse or misuse of
travel cards to complement the tools available from JPMorgan.

     Management’s Response. The Chief Financial Officer concurred, stating that new
     guidance will be added as part of the new FMOP, with an anticipated issuance date of
     March 31, 2012.

     Evaluation of Management’s Response. Management’s planned action is responsive;
     therefore, the recommendation is resolved and will be closed upon completion and
     verification of the corrective action.

Recommendation 7. Develop guidance to address when personal use of the travel card may
be acceptable, such as to purchase in-room movies while on official Government travel.

     Management’s Response. The Chief Financial Officer concurred, stating that her office
     will develop and issue appropriate guidance by March 31, 2012.

     Evaluation of Management’s Response. Management’s planned action is responsive;
     therefore, the recommendation is resolved and will be closed upon completion and
     verification of the corrective action.




12                                                                         REPORT NO. IG-12-010
RESULTS




                         NASA’S POLICY AND PRACTICES REGARDING
                          SELF-APPROVAL AND SELF-AUTHORIZATION
                                    OF TRAVEL ARE OVERLY BROAD

          An inordinate number of NASA employees have authority to both authorize their
          official Government travel and approve the associated expenses for reimbursement.
          Specifically, we found that the travel authorizations and expenses for 45 NASA
          employees were not required to be reviewed or approved by a supervisor or
          approving official. These 45 individuals incurred more than a half million dollars in
          travel card expenses between October 1, 2009 and December 31, 2010. We also
          found that NASA had incorrectly applied its policy regarding which employees may
          self-authorize travel and self-approve expenses, and that subordinate employees were
          approving the travel expenses of five Center Directors. Finally, NASA’s policy
          designating which positions can self-authorize and self-approve travel is out of date
          and refers to positions that no longer exist at the Agency. Each of these conditions
          increases the risk of fraud and abuse in NASA’s travel card program.


Excessive Number of Individuals Have Authority to Both Self-
  Authorize Travel and Self-Approve Expenses

  NASA employees use FedTraveler to obtain authorization to undertake official travel and
  to gain approval for reimbursement of their expenses upon return to their duty stations.
  For most employees, there are four steps to the authorization process:

      1. Traveler submits travel authorization through FedTraveler.com, including
         estimated expenses.

      2. Fund Certifier reviews the authorization to ensure that the funds to pay for the
         travel are available.

      3. Supervisor reviews the authorization and, if he or she finds the travel allowable
         and the costs reasonable, authorizes the employee to travel.

      4. Travel Office completes final review for compliance with travel regulations.

  When an employee is designated as a self-authorizer, the supervisor approval step is
  eliminated.

  When an employee returns from official travel, a similar process is followed to secure
  reimbursement for the employee’s expenses:

      1. Traveler submits the claim with receipts.



REPORT NO. IG-12-010                                                                         13
                                                                                                        RESULTS



            2. Fund Certifier reviews the claim to ensure that funds are available.

            3. Supervisor reviews the claim and receipts and, assuming no issues are identified,
               approves the claim.

            4. NSSC completes payment processing.

     Once again, if the traveler is designated as a self-approver, the supervisory review step is
     not performed.

     We found that NASA permits an inordinate number of employees to both self-authorize
     travel and self-approve their travel expenses. NASA Policy Directive (NPD) 9710.1V
     designates more than 34 positions, including the Administrator, the Deputy Administrator,
     the Chief Financial Officer, Officials-in-Charge of Headquarters Offices, and Center
     Directors as both self-authorizers and self-approvers. Moreover, when we reviewed
     FedTraveler records, we found even more individuals had this authority than those
     identified in the policy. Specifically, we identified 42 active and 3 retired employees
     whose FedTraveler profiles allowed them to both authorize and approve their own travel,
     including several Associate and Assistant Administrators at Headquarters and office
     chiefs at Marshall Space Flight Center. 9 Between October 1, 2009, and December 31,
     2010, these 42 active employees charged to their travel cards and were reimbursed
     approximately $552,000 – all with no review from a higher-level official. In addition,
     these employees incurred charges for airline or rail tickets billed to a central NASA
     account that similarly did not receive supervisory review.

     We compared NASA’s policy to policies at several Federal agencies and found NASA to
     be significantly more expansive. For example, out of more than 116,000 employees at
     the Department of Justice (approximately six times the number of NASA employees),
     only the Agency’s Inspector General and individuals appointed as Independent Counsel
     have the authority to approve their own travel vouchers. 10 Also, no positions at the
     Department of Veterans Affairs have the authority to authorize or approve their own
     travel or travel expenses.

     Moreover, according to NPD 9710.1V, 22 of the 45 individuals who were permitted to
     both self-authorize and self-approve (17 from Marshall and 5 from Headquarters) should
     have been designated in FedTraveler only as self-authorizers. Officials from the NASA
     Enterprise Application Competency Center (NEACC), which manages access to
     FedTraveler, told us that they have the ability to set the system so that employees have
     the ability to self-authorize but must obtain supervisory review of their expenses.

     9
          None of the former employees had used their cards since leaving the Agency and NASA reported that
          their access to FedTraveler.com had been disabled.
     10
          The number of cardholders at the Department of Justice as of December 31, 2010, as obtained from the
          General Services Administration (GSA) Smartpay Program Statistics. The Attorney General’s travel
          vouchers are reviewed and approved by the Deputy Attorney General or the Attorney General’s Chief of
          Staff.



14                                                                                      REPORT NO. IG-12-010
RESULTS



  However, they said that Marshall and Headquarters failed to inform them that these 22
  employees should be designated only as self-authorizers.

  Finally, NPD 9710.1V, section 1, requires that travel be authorized and approved by an
  official at least one organizational level above the traveler and prohibits subordinates
  from authorizing or approving the travel of their supervisors. 11 However, there is no
  automated method for preventing subordinates from authorizing or approving superiors’
  travel claims in FedTraveler. Rather, NEACC relies on the NASA Centers to designate
  appropriate approving officials for employees. 12

  NASA’s current practice of allowing an inordinate number of employees to both
  authorize and approve their own travel increases the risk that NASA travel cards will be
  misused or abused. While NASA has some compensating controls in place, in our
  judgment these controls do not adequately substitute for supervisory review. For
  example, NASA officials pointed to the fact that a Funds Certifier reviews all travel
  authorizations and approvals. However, the Funds Certifier’s primary responsibility is to
  ensure that funds are available, not determine whether the travel is appropriate or
  warranted. In addition, Fund Certifiers are subordinates of the individuals with self-
  authorization and self-approval authority and therefore may be hesitant to question their
  supervisor’s travel claims.

  NASA officials also noted that NSSC regularly audits all international travel claims and a
  sample of domestic travel claims. However, no audits or other procedures specific to
  self-approved or self-authorized travel are performed, and NASA does not consider
  whether travel has been self-authorized or self-approved when choosing audit samples for
  domestic travel claims.

  Out of Date Policies. NPD 9710.1V designates the positions at NASA that can authorize
  and approve their own travel including the Administrator, the Deputy Administrator, the
  Chief Financial Officer, Officials-in-Charge of Headquarters Offices, and Center
  Directors. According to NPD 1000.3D, “The NASA Organization w/Change 24,”
  paragraph 1.2.2, July 21, 2011, 24 positions are identified as “Officials-in-Charge.” In
  contrast, as of March 22, 2011, the NASA Headquarters Executive Secretariat website
  listed 35 positions as Officials-in Charge, excluding the Administrator, the Deputy
  Administrator, the Chief Financial Officer, and the Center Directors. Additionally,
  several positions listed in NPD 1000.3, such as the Director of Program and Institutional
  Integration, no longer exist at NASA because of Agency reorganizations over the last
  several years.

  11
       We found that in an attempt to avoid an appearance of impropriety, five Center Directors had assigned
       subordinates to authorize and approve their travel expenses. However, we found a significant variation
       in the positions assigned this responsibility, ranging from Senior Executive Service employees (such as a
       Center Chief Financial Officer and Special Assistant to the Center Director) to lower-graded employees
       such as a GS-13 Budget Analyst or Lead Accountant.
  12
       During the course of the audit, we found isolated instances of OIG employees approving the travel of
       supervisors or employees of equivalent rank. The OIG has taken steps to ensure that only supervisors
       approve travel claims.



REPORT NO. IG-12-010                                                                                               15
                                                                                         RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

In order to decrease the risk of misuse of NASA travel cards, we recommended that the
Chief Financial Officer take the following actions:

Recommendation 8. Revise NPD 9710.1V to decrease the number of or eliminate entirely
positions designated as “self-authorizers” for Government travel. To avoid confusion,
NASA should identify the specific positions with this authority rather than referring to
generic groups, such as “Heads of Center Mission Support Offices.”

     Management’s Response. The Chief Financial Officer concurred, stating that her office
     will revise, vet, and publish for Agency review in NASA’s policy document management
     system a revised draft NPD 9710 by May 31, 2012, with a target date for an approved
     NPD of September 30, 2012.

     Evaluation of Management’s Response. Management’s planned action is responsive;
     therefore, the recommendation is resolved and will be closed upon completion and
     verification of the corrective action.

Recommendation 9. Revise NPD 9710.1V to significantly decrease the number of
positions designated as “self-approvers” for Government travel reimbursement. As part of
this effort, the Agency should consider adopting a policy that requires travel expenses of all
NASA employees with the exception of the Administrator and the Inspector General to
undergo supervisory review before they are reimbursed. In addition, to avoid confusion the
Agency should identify the specific positions with this authority rather than referring to the
generic group “Officials-in-Charge.”

     Management’s Response. The Chief Financial Officer concurred with significantly
     decreasing the number of positions designated as “self-approvers.” However, NASA
     disagrees that group designations like “Officials-in-Charge” are so generic as to be
     confusing, as this term is precisely defined in NPD 1000.3, Section 1.2.2. When
     reviewing which positions should no longer be self-approvers, NASA will consider
     alternative terms or role descriptions that minimize any confusion and will also consider
     alternatives for supervisory review up to and including limiting self-approval to the
     Administrator and the Inspector General. The Office of the Chief Financial Officer will
     revise, vet, and publish for Agency review a revised draft NPD 9710 by May 31, 2012,
     with a target date for an approved NPD of September 31, 2012.

     Evaluation of Management’s Response. Management’s planned action is responsive to
     the intent of our recommendation. Therefore, the recommendation is resolved and will
     be closed upon completion and verification of the corrective action.




16                                                                         REPORT NO. IG-12-010
RESULTS



Recommendation 10. Ensure that roles in FedTraveler accurately reflect employees’ level
of approval authority, for example, employees designated to only self-authorize travel
requests should not also have the ability to self-approve travel claims.

   Management’s Response. The Chief Financial Officer concurred, stating that her office
   and the NEACC will jointly lead an Agency review of roles to verify that only employees
   authorized by NPD 9710 as self-authorizers and/or self-approvers hold those roles in
   FedTraveler. The review will commence by May 31, 2012, with a target completion date
   of June 30, 2012.

   Evaluation of Management’s Response. Management’s planned action is responsive;
   therefore, the recommendation is resolved and will be closed upon completion and
   verification of the corrective action.

Recommendation 11. Develop a process to ensure enforcement or monitoring compliance
with the policy that subordinates may not approve superiors’ travel expenses.

   Management’s Response. The Chief Financial Officer concurred, stating that her office,
   the NSSC, and the NEACC will jointly develop a process for monitoring compliance
   with the revised policy to coincide with the effective date of the revised NPD 9710.

   Evaluation of Management’s Response. Management’s planned action is responsive;
   therefore, the recommendation is resolved and will be closed upon completion and
   verification of the corrective action.

Recommendation 12. Perform an annual risk assessment by type of expense report (e.g.,
self-approved, conference-related, foreign travel) and increase the frequency of audits of
expense reports submitted by self-approvers.

   Management’s Response. The Chief Financial Officer concurred, stating that her office
   will develop an annual risk-assessment process and increase the frequency of audits of
   expense reports as necessary. The risk-assessment process will be developed by May 31,
   2012.

   Evaluation of Management’s Response. Management’s planned actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the corrective actions.




REPORT NO. IG-12-010                                                                         17
                                                                                       RESULTS




                     CONTROLS OVER THE PURCHASE CARD PROGRAM,
                          WHILE GENERALLY EFFECTIVE, COULD BE
                                                 STRENGTHENED

            Overall, we found that NASA’s purchase card program was operating efficiently and
            internal controls appeared effective in detecting misuse, fraud, waste, and abuse by
            cardholders. However, we found several areas that could be strengthened.
            Specifically, NASA has an excessive number of underutilized purchase cards and
            does not require sufficient documentation for purchase requests, costs, and
            approvals. We found 110 cardholders had not used their cards or used their cards
            only one time during our audit period of October 1, 2009, to December 31, 2010.
            Additionally, NASA does not have effective internal controls for reviewing purchase
            card accounts to determine continuing need for the card. We also found transaction
            records often did not include information regarding who requested the purchases or
            evidence of the cost of the items purchased or approval of the purchases. Both of
            these conditions increase the risk of misuse, fraud, waste, or abuse of NASA
            purchase cards.


NASA’s Internal Controls for the Purchase Card Program Are
 Generally Effective

     We found that NASA was effectively monitoring purchase card use. We also found that
     NASA’s purchase card policies and procedures are generally consistent with OMB
     guidance. Additionally, we found that NASA employees generally used their purchase
     cards appropriately and retained appropriate documentation supporting their purchases.
     Moreover, NASA mandates and cardholders participated in training about their
     responsibilities under the program. However, we identified several areas where internal
     controls over the purchase card programs could be strengthened by better adhering to
     OMB guidance and implementing practices used by several NASA Centers.


NASA Should Reduce the Number of Purchase Cards Issued

     We found that 110 purchase cardholders had never used their cards or had only used their
     cards once during our 15-month audit period. Specifically, 20 cardholders at Ames had
     never used their cards and 90 others located throughout NASA had used their cards only
     once. We considered these cards to be underutilized.




18                                                                        REPORT NO. IG-12-010
RESULTS




                           Figure 1. Underutilized Purchase Cards by Location
                                                                   Goddard
                               Langley                           Space Flight
                              Research                            Center, 16
                             Center, 26
                                                                       Kennedy
                                                                     Space Center,
                                                                           8
                            Marshall
                           Space Flight
                           Center , 11                             Ames
                        Glenn                                     Research
                       Research Other NASA                       Center, 31
                       Center, 7 Locations, 11




  Many Purchase Card Coordinators reported performing a regular review of cardholder
  accounts. However, we found that these reviews did not identify underutilized purchase
  cards. Based on our inquiries, NASA officials closed 27 of the 110 accounts we
  identified. NASA supervisors decided that the remaining cards were necessary in order
  to maintain a backup purchaser, for emergency use as part of the NASA Continuity of
  Operations Planning, and based on an expectation that usage was anticipated to increase
  in the future. 13


NASA Should Improve the Documentation and Approval Trail for
 Purchases

  NASA has not developed sufficient policies and controls governing documentation of
  purchase card purchases and approvals. Specifically, we found instances where the
  individual requesting and/or approving the purchase could not be identified and where
  transaction files contained no evidence of the cost of purchases.

  Transaction Records Do Not Identify the Requestor. OMB Circular A-123, Appendix
  B, section 4.7, states: “To the maximum extent possible, agency personnel requesting a
  cardholder to acquire an item(s) with a purchase card should provide written requests to
  the purchase cardholder for the items. 14 If it is not possible for the requester to make the
  request in writing, the purchase cardholder should document in their file the requester’s
  name . . . and obtain prior approval before making self-generated purchases.” However,
  39 of the 203 purchase card transaction records we examined did not contain written
  requests from or otherwise identify the individual requesting the purchase. Additionally,

  13
       NASA Continuity of Operations Planning teams are responsible for ensuring that the Agency is prepared
       to maintain the operation of its critical mission essential functions or implement transfer of critical
       mission essential functions to alternate locations in the event of emergencies and disastrous events
       resulting in long-term disruptions of normal operations.
  14
       OMB Circular A-123, Appendix B, incorrectly labeled two sections as 4.8 and no section as 4.7. The
       reference in this report is to the first section 4.8 that should have been labeled 4.7.



REPORT NO. IG-12-010                                                                                             19
                                                                                                           RESULTS



     written requests to cardholders to make purchases were not maintained in the purchase
     card transaction records. 15 Figure 2 shows the number of transaction records that did not
     identify the purchase requestor by Center.

                     Figure 2. Number of Transaction Records that Did Not Identify the Requestor,
                                                     by Center

                                    Ames Research                   Glenn Research
                                      Center, 8                        Center, 8



                                Johnson Space                                Marshall Space
                                Flight Center, 3                             Flight Center, 3


                                     Other NASA
                                     Locations, 4
                                                                     Goddard Space
                                                                    Flight Center, 13


     Of the 39 transaction records that did not contain information related to the requestor, we
     noted that 14 of those transactions were self-generated purchases in which prior approval
     by a supervisor was not obtained. These transactions were at the following Centers:
     Ames (2), Glenn (2), Goddard (9), and Marshall (1). NASA does not have a policy that
     requires prior approval for self-generated purchases and this omission increases the risk
     that inappropriate purchases may go undetected.

     Insufficient Audit Trail for Approval of Purchase Reconciliations. We sampled 97
     transactions and found that 75 had inconclusive evidence of who approved the
     reconciliation of the transactions. NASA uses P-Card Web Solution to track the
     electronic approval of purchase card reconciliations. An approving officer can delegate
     their electronic approval authority within P-Card Web Solution to a third party.
     However, when designees review reconciliations, P-Card Web Solution records the user
     identification code of the approving official and not the designee.

     OMB Circular A-123, Part I, Introduction, section A, “Agency Implementation,” states:
     “management should have a clear, organized strategy with well-defined documentation
     processes that contain an audit trail, verifiable results, and specify document retention
     periods so that someone not connected with the procedures can understand the
     assessment process.” For the 97 transactions we examined, we tried to obtain proof of
     who approved the reconciliations (i.e., paper approval), but for 75 of the 97 transactions
     we found no alternative proof of the party completing approval of the reconciliations.
     Moreover, the system does not allow a user to authenticate who approved the
     reconciliation electronically (see Figure 3). Approving officials are only required to
     15
          Although we were not provided written requests for some transactions, we had sufficient evidence to
          determine that the purchases were for official Government purposes. We assessed the appropriateness of
          these transactions by reviewing the item description and details and making inquiries regarding specific
          purchases.



20                                                                                         REPORT NO. IG-12-010
RESULTS



  approve a reconciliation electronically in P-Card Web Solution per NASA FAR
  Supplement 1813.301. Some approving officials also physically sign the reconciliation
  but this is not a required or consistent practice at NASA.

                              Figure 3. Number of Reconciliations without Identified Approver,
                                                              by Location

   14

                                               13

                                                                                 12
   12
                                                                11


   10
                                                                                                                  9              9


    8
                                                                                                 7


    6

             5

                              4                                                                                                                   4
    4




    2

                                                                                                                                                                   1


    0
        Ames Research    Dryden Flight    Glenn Research   Goddard Space    Johnson Space   Kennedy Space Langley Research Marshall Space    NASA Shared     Wallops Flight
           Center       Research Center       Center        Flight Center       Center         Center          Center       Flight Center   Service Center      Facility




  NASA employees are not properly documenting the approval of reconciliations because
  NASA has inappropriately relied upon P-Card Web Solution to document who approved
  a transaction, and P-Card Web Solution software functionality does not accurately track
  this information when the responsibility has been delegated to a third party.

  Transaction Records Do Not Consistently Include Evidence of the Cost. We noted
  that the vendor invoice or other form of supporting documentation that validates the cost
  of items purchased was not received from the vendor and maintained in the purchase card
  transaction records for 10 of the 203 transactions we examined. NASA’s policy does not
  require the purchase cardholder to obtain an invoice or alternative evidence of costs such
  as a quote or a screen print for Internet purchases if one is not already provided by the
  vendor.

  Given this lack of cost documentation, NASA has not developed sufficient policies to
  meet minimum standards for requiring documentation for card purchases as required by
  OMB Circular A-123, Appendix B. Additionally, NASA inappropriately relied upon
  P-Card Web Solution to document the approval of transaction reconciliations.
  Insufficient approval or documented records to support purchase expenditures leads to an
  increased risk of misuse, fraud, waste, and abuse. By making greater use of
  recommended controls from OMB Circular No. A-123, Appendix B, and practices used
  at several NASA Centers, NASA could reduce the risk of misuse, fraud, waste, and abuse
  by purchase cardholders.


REPORT NO. IG-12-010                                                                                                                                                          21
                                                                                              RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

We recommended that the Assistant Administrator for Procurement take the following
actions:

Recommendation 13. Develop a policy requiring a clear necessity for or a minimum
amount of purchases before issuance or re-issuance of a purchase card. The policy should
include that continued non-usage could result in a reduction of the credit limit or
cancellation of the card.

     Management’s Response. The Assistant Administrator for Procurement did not concur,
     stating that the requirement for conducting a transaction volume analysis is already
     contained in the NASA Federal Acquisition Regulation Supplement and the Internal
     Review Guide for Center/Agency Program Coordinators and hence additional policy is
     not required. However, NASA plans to send an e-mail to all cardholders, Coordinators,
     and approving officials reminding them of this requirement along with links to the
     guidance by March 1, 2012.

     Evaluation of Management’s Response. We consider management’s comments to be
     unresponsive and believe they do not adequately address the concerns that prompted our
     recommendation. While the current policy requires that a transaction volume analysis be
     conducted every 6 months, we found that this analysis was not effectively performed,
     which resulted in a high number of underutilized cards being active. Additionally, the
     existing policies are not specific or clear in defining the need or prerequisite criteria for a
     card to be issued, such as a required minimum usage or planned usage prior to issuance
     of a purchase card. Accordingly, we consider this recommendation unresolved.

Recommendation 14. Work with the NASA Enterprise Applications Competency Center to
make systems changes to P-Card Web Solution to enable the software to document the user
identification code of the approving party and work with the Purchase Card Coordinator to
develop an alternative documentation process of approvals until systems changes are made.

     Management’s Response. The Assistant Administrator for Procurement concurred,
     stating that approving officials will be required to document their names in the P-Card
     transaction comments field when they serve as an alternate and approve transactions on
     behalf of another approving official. By September 30, 2012, NASA will review the
     feasibility of making software code changes to the P-Card system.

     Evaluation of Management’s Response. Management’s planned actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.




22                                                                             REPORT NO. IG-12-010
RESULTS



Recommendation 15. Develop policies that require the purchase cardholder to:

      •   include a written request for purchases or, at a minimum, the requestor’s name in
          the purchase card transaction records;

      •   obtain approval prior to making self-generated purchases and include evidence of
          the approval in the log; and

      •   obtain an invoice or alternative evidence of costs such as a quote or a screen print
          for Internet purchases if one is not already provided by the vendor.

  Management’s Response. The Assistant Administrator for Procurement did not concur,
  stating that NASA already has a policy in place to address these issues and that
  cardholders are trained to enter information related to special approvals in the P-Card
  order log comments field. The Assistant Administrator indicated that NASA’s Agency
  Program Coordinator will send an e-mail to all cardholders, Coordinators, and approving
  officials reminding them of this requirement along with links to the guidance by March 1,
  2012.

  Evaluation of Management’s Response. We consider management’s comments to be
  unresponsive, as they do not adequately address the concerns that prompted our
  recommendation. While the current policy requires cardholders to record information
  regarding items ordered, it does not specifically require inclusion of the requestor’s name.
  We believe that in the absence of such a requirement, cardholders will continue to omit
  this information. Similarly, while cardholders may be trained to enter information related
  to special approvals in their order logs, we found no evidence that they are required to
  obtain and document evidence of approval for self-generated purchases. Finally,
  although we agree that current policy requires cardholders to include an invoice when the
  merchant provides one, the policy does not specify what evidence of cost is required
  when an invoice is not provided. Accordingly, we consider these recommendations
  unresolved.




REPORT NO. IG-12-010                                                                             23
APPENDIXES




                                                                          APPENDIX A

 Scope and Methodology

  We performed this audit from January 2011 through January 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our objective was to determine whether the purchase and travel card programs were
  operating efficiently and internal controls were effective to help detect misuse, fraud,
  waste, or abuse by cardholders or others who attempt to manipulate the programs, and
  were operating in compliance with certain laws and regulations. We also examined a
  travel-related issue concerning employees who can self-authorize and self-approve travel
  and travel related-expenses. We identified and reviewed relevant Federal laws and
  regulations, NASA policies, procedures, plans, and guidance, and other criteria (see
  detailed list of items reviewed below).

  We conducted site visits at NASA Headquarters in Washington, D.C., NASA Shared
  Services Center in Mississippi, Goddard Space Flight Center in Maryland, Kennedy
  Space Center in Florida, and Marshall Space Flight Center in Alabama. During our
  fieldwork, we interviewed officials responsible for purchase and travel card programs to
  obtain an understanding of the process for issuing new cards, ensuring training of
  employees, monitoring of purchase and travel cardholders activities, the payment
  process, and the review and approval of purchase card transactions, travel authorizations,
  and travel claims. Further, we reviewed the training of 45 randomly selected individuals
  issued purchase and travel cards to ensure compliance with NASA training policies and
  procedures.

  In order to meet our primary objectives for this audit, we interviewed officials from each
  of the NASA Centers we visited. We also examined documentation and performed the
  following tasks among others:

      •   reviewed copies of NASA policies, procedures, presentations, and trainings
          related NASA purchase and travel card programs to ensure that proper internal
          controls are documented;

      •   reviewed copies of JPMorgan reports on NASA purchase and travel card
          activities to determine whether any questionable charges had been made and
          identified by management;




REPORT NO. IG-12-010                                                                           25
                                                                                       APPENDIX A



        •   reviewed an electronic database from JPMorgan of NASA purchase and travel
            card accounts to determine the number of cardholders and review activity;

        •   selected a statistical sample of purchase and travel card transactions and selected a
            sample of transactions via data mining procedures (See Appendix B for our
            sampling methodology);

        •   tested the controls over a statistical sample of purchase and travel card
            transactions (see the section titled “Review of Internal Controls” below for
            additional information);

        •   tested the statistical and data mining samples to determine if the transactions were
            supported, approved, and an appropriate use of the Government purchase and
            travel card;

        •   compared a list of all active cardholders to a list of terminated employees to
            ensure that their purchase and travel cards were cancelled;

        •   reviewed activity of cardholders to determine if purchase and travel cards were
            actively used; and

        •   examined processes to self-authorize and approve travel transactions.

     Use of Computer-Processed Data. We obtained our data of purchase and travel card
     transactions from JPMorgan PaymentNet® (PaymentNet) and attempted to reconcile the
     data; however, we were unable to assess the overall completeness and reliability of
     purchase and travel card data from PaymentNet due to data limitations in
     FedTraveler.com and NASA’s financial management system, SAP. We did verify the
     accuracy of this data by tracing a sample of the transactions to source documents and a
     sample of source documents to transactions in PaymentNet. Although we were able to
     utilize PaymentNet to corroborate individual transactions and verify related payment
     information, we considered the data contained in SAP and PaymentNet to be of
     undetermined reliability in terms of completeness and accuracy. However, we concluded
     that the data was reliable for our purposes and did not weaken our analysis or lead us to
     an incorrect message.


Review of Internal Controls

     We reviewed internal controls for the purchase and travel card programs. Any control
     weaknesses we identified are discussed in this report. Our recommendations, if
     implemented effectively, should correct the identified control weaknesses.

     Purchase Card. Our audit of key internal controls focused on whether NASA provided
     adequate documentation to substantiate that purchase card transactions appeared to be for
     official Government use, were properly authorized and supported, and goods and services


26                                                                          REPORT NO. IG-12-010
APPENDIX A



  acquired with purchase cards were independently received and accepted. Furthermore,
  for purchases exceeding the micropurchase threshold of $3,000, we tested Federal
  Acquisition Regulation requirements that the cardholder use required vendors and
  promote competition by soliciting bids—or justify the departure from this requirement in
  writing.

  Travel Card. Our audit of key internal controls focused on whether NASA provided
  adequate documentation to substantiate that travel card transactions appeared to be for
  official Government travel, were properly supported, were for reasonable costs, and the
  related bill was paid on time.


Federal Laws, Regulations, Policies, and Guidance

  As part of our tests of internal controls, we reviewed applicable federal laws and
  regulations related to purchase and travel card uses. We also examined certain common
  problems identified in Council of Inspectors General on Integrity and Efficiency’s “A
  Practical Guide for Reviewing Government Purchase Card Programs” and “Review of
  Common Problems and Best Practices in Federal Agencies’ Travel Card Programs” and
  GAO’s “Audit Guide – Auditing and Investigating the Internal Control of Government
  Purchase Card Programs.” Additionally we reviewed NASA purchase and travel card
  policies and procedures. This review included, but was not limited to, the following:

  Laws and Regulations
    Public Law 105–264, “Travel and Transportation Reform Act of 1998,” October 19,
    1998
    Circular No. A-123, Appendix B Revised, “Improving the Management of Government
    Charge Card Programs,” January 15, 2009
    Treasury Financial Manual Volume 1 Part 4 Chapter 4500 Government Purchase Cards
    Federal Acquisition Regulation 48 C.F.R. Part 13
    “Principles of Federal Appropriations Law” (The Red Book), Third Edition, Volume II,
    Page 6-162 (GAO-06-382SP, February 2006)
    The Simplified Acquisition Procedures Part 1813

  NASA Policy and Procedures
    NPD 9070.2, “Government Charge Cards,” November 5, 2008
    NPD 9710.1V, “Delegation of Authority - To Authorize or Approve Temporary Duty
    Travel on Official Business and Related Matters,” December 9, 2009
    NPR 9700.1, “Appendix A. NASA Federal Travel Regulations Supplement,”
    September 30, 2008




REPORT NO. IG-12-010                                                                         27
                                                                                  APPENDIX A



      NASA Procurement Information Circular 10-14, “Special Approvals for Purchase Card
      Transactions,” October 13, 2010

     Documents and Presentations
      NASA Charge Card Management Plan, February 13, 2008
      Draft NASA Government wide Commercial Purchase Card Management Plan
      NASA HQ Presents Essential Training about the Government Travel Card


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General, the Government
     Accountability Office (GAO), and the Treasury Inspector General for Tax Administration
     have issued five reports of particular relevance to the subject of this report.

     NASA Office of Inspector General

     “Internal Controls to Detect and Prevent Unauthorized and Potentially Fraudulent
     Purchase Card Transactions at Four NASA Centers Needed Improvement” (IG-07-012,
     March 29, 2007)

     Government Accountability Office

     “GAO Travel Cards - Opportunities Exist to Further Strengthen Controls” (GAO\OIG-
     11-1, December 7, 2010)

     “Government-wide Purchase Cards - Actions Needed to Strengthen Internal Controls to
     Reduce Fraudulent, Improper, and Abusive Purchases” (GAO-08-333, March 14, 2008)

     Treasury Inspector General for Tax Administration

     “Although Citibank Travel Rebates Have Significantly Increased, They Were Not
     Properly Allocated, Resulting in the Misappropriation of Funds” (2010-10-124,
     September 24, 2010)

     “Controls Over the Purchase Card Program Were Not Effective in Ensuring Appropriate
     Use” (2011-10-075, August 31, 2011)




28                                                                      REPORT NO. IG-12-010
APPENDIX B




                                                      SAMPLING METHODOLOGY

  For our audit, we used both statistical sampling and data mining sampling techniques to
  select our samples. To obtain our statistical sample, our methodology was attribute
  sampling by random selection. For our data mining sample, we used a nonstatistical
  sampling method known as judgmental sampling based upon multiple indicators of
  suspicious or inappropriate activity. We obtained access to the database containing
  purchase and travel card transactions for the 15-month audit period of October 1, 2009, to
  December 31, 2010, from JPMorgan. This database included transactions Agency-wide.
  Each of the following sites was subject to examination during the audit:

      •   NASA Headquarters

      •   Ames Research Center

      •   Dryden Flight Research Center

      •   Glenn Research Center

      •   Goddard Space Flight Center

      •   Johnson Space Center

      •   Kennedy Space Center

      •   Langley Research Center

      •   Marshall Space Flight Center

      •   NASA Shared Services Center

      •   Stennis Space Center

      •   Wallops Flight Facility

  Statistical Samples. We extracted three statistical (probability) samples of 97 purchase
  cards transactions, 97 travel cards transactions billed to individual cardholders (IBA), and
  59 travel card transactions centrally-billed (CBA) to NASA from our database of
  purchase and travel card transactions.

  Purchase Card Sample. The purchase card transaction universe was 146,929
  transactions valued at $96.6 million. We used Winstats (Ver. 1.0) to determine our
  sample size using a 90 percent confidence level, 10 percent estimated attribute error rate,


REPORT NO. IG-12-010                                                                             29
                                                                                       APPENDIX B



     and 5 percent desired precision rate or sampling error. We used EZ-Quant (Ver. 1.1.1) to
     randomly select our sample of 97 transactions. Based on our testwork, no projection of
     errors was necessary.

     Travel Card IBA Sample. The travel card IBA transaction universe was 364,191
     transactions valued at $46.5 million. We used Winstats to determine our sample size
     using a 90 percent confidence level, 10 percent estimated attribute error rate, and 5
     percent desired precision rate or sampling error. We used EZ-Quant to randomly select
     97 transactions. Based on our testwork, the projection for errors was not significant to be
     included in this audit report.

     Travel Card CBA Sample. The travel card CBA transaction universe size was 288,532
     transactions valued at $48.9 million. We used Winstats to determine our sample size
     using an 80 percent confidence level, 10 percent estimated attribute error rate, and 5
     percent desired precision rate or sampling error. We used EZ-Quant to randomly select
     59 transactions. Based on our testwork, no projection of errors was necessary.

     Samples Selected Using Data Mining Techniques. Data mining was also conducted to
     identify high-risk transactions. We used the same database containing purchase and
     travel card transactions for the 15-month audit period of October 1, 2009, to
     December 31, 2010, from JPMorgan that used for the statistical samples.

     Purchase Card Sample. We analyzed purchase card data looking for higher risk
     transactions by examining the merchant category codes and vendor names that were more
     likely to offer goods, services, or both that are on NASA restricted/prohibited lists,
     personal in nature, of questionable Government need, or purchased with convenience
     checks or large dollar purchases. We identified over 58,000 transactions that were higher
     risk and selected 106 transactions for examination.

     Travel Card Sample. We analyzed all travel card data, for both CBA and IBA, looking
     for higher risk transactions by examining the merchant category codes and vendor names
     that were more likely to offer goods, services, or both that are inappropriate for
     Government travel expense, personal in nature, or were cash advances. We identified
     over 50,000 transactions that were higher risk and selected 79 transactions for
     examination.

     We requested and reviewed supporting documentation for 106 purchase card transactions
     and 79 travel card transactions. We conducted additional inquiries and data analysis,
     when applicable. Our work was not designed to identify and we cannot determine the
     extent of fraudulent, improper, or abusive transactions occurring in the population of
     purchase card transaction. The results of our testwork included some errors over these
     transactions. Details are included within this audit report.




30                                                                          REPORT NO. IG-12-010
APPENDIX C




                                                  CARD ACCOUNT STATUS AND
                                                      TRANSACTION DATA BY
                                                           NASA LOCATION

  Table 2 shows current card account status for travel and purchase cards held by NASA
  Headquarters and Centers staff, prepared from JPMorgan reports as of December 31,
  2010.

           Table 2: Number of Active NASA Purchase and Travel Card Accounts,
                                 as of December 31, 2010
                                                                         Total Active
                                      Travel Card     Purchase Card         Card
   Location                            Accounts         Accounts          Accounts
   Ames Research Center                  1,003              266             1,269
   Dryden Flight Research Center           520               41               561
   Glenn Research Center                 1,505              289             1,794
   Goddard Space Flight Center           2,411              551             2,962
   Headquarters                          1,182               75             1,257
   Johnson Space Center                  2,893              221             3,114
   Kennedy Space Center                  1,813               91             1,904
   Langley Research Center               1,605              348             1,953
   Marshall Space Flight Center          2,144              266             2,410
   NASA Shared Services Center             126               17               143
   Stennis Space Center                    258               23               281
   Wallops Flight Facility                    2              52                54
      Total                              15,462            2,240            17,702
   Source: JPMorgan data.




REPORT NO. IG-12-010                                                                     31
                                                                                               APPENDIX C



      Table 3 shows the dollar amount and number of travel and purchase card transactions that
      occurred between October 1, 2009, and December 31, 2010 for NASA cardholders, per
      JPMorgan reports. We separated the accounts by location for improved analysis.

                          Table 3: NASA Purchase and Travel Card Transactions
                               October 1, 2009 through December 31, 2010
                                                                                 Number of
                                   Transaction Amount                           Transactions

                                  Travel       Purchase                      Travel    Purchase
Location                          Card          Card            Total        Card       Card         Total
Ames Research Center             $7,360,946    $11,887,755     $19,248,701    47,587     20,932       68,519
Dryden Flight Research Center     3,224,399      3,888,570       7,112,969    23,941      6,236       30,177
Glenn Research Center             8,210,877     11,566,057      19,776,934    55,775     20,368       76,143
Goddard Space Flight Center      14,724,185     21,856,843      36,581,028    95,852     35,416      131,268
Headquarters                      9,986,815      1,468,197      11,455,012    68,399      2,151       70,550
Johnson Space Center             19,165,494      6,832,546      25,998,040   122,371     10,774      133,145
Kennedy Space Center              8,322,312      3,143,045      11,465,357    62,681      4,843       67,524
Langley Research Center          10,643,054     12,603,662      23,246,716    71,749     21,016       92,765
Marshall Space Flight Center     11,875,842      8,953,420      20,829,262    89,158     12,814      101,972
NASA Shared Services Center        698,750      13,027,536      13,726,286     4,834      9,907       14,741
Stennis Space Center              1,189,859       311,939        1,501,798     9,841           625    10,466
Wallops Flight Facility                    0     1,069,177       1,069,177        0       1,847        1,847
Unidentified                          1,522               0          1,522       21             0        21
  Total                         $95,404,055    $96,608,747    $192,012,802   652,209    146,929      799,138
Source: JPMorgan data.




 32                                                                              REPORT NO. IG-12-010
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-12-010                         33
              APPENDIX D




34   REPORT NO. IG-12-010
APPENDIX D




REPORT NO. IG-12-010   35
              APPENDIX D




36   REPORT NO. IG-12-010
APPENDIX D




REPORT NO. IG-12-010   37
                                                                               APPENDIX E




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer
        Deputy Chief Financial Officer
     Assistant Administrator for Procurement
     Executive Director, NASA Shared Services Center
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




38                                                                    REPORT NO. IG-12-010
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Michelle Robertson, Project Manager
   Deirdre Beal, Auditor
   GaNelle Flemons, Auditor
   Bruce Schmidt, Program Analyst




REPORT NO. IG-12-010                                         39
                                                                                  FEBRUARY 16, 2012
                                                                        REPORT No. IG-12-010




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
